<html>
<title> - LEGISLATIVE HEARING ON H.R. 189, H.R. 216, H.R. 245, H.R. 280, AND H.R. 294</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







LEGISLATIVE HEARING ON H.R. 189, H.R. 216, H.R. 245, H.R. 280, AND H.R. 
                                  294

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, JANUARY 27, 2015

                               __________

                           Serial No. 114-03

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
         
         
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-994                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHELEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.





















                            C O N T E N T S

                              ----------                              

                       Tuesday, January 27, 2015

                                                                   Page

Legislative Hearing on H.R. 189, H.R. 216, H.R. 245, H.R. 280, 
  and H.R. 294...................................................     1

                           OPENING STATEMENTS

Jeff Miller, Chairman............................................     1
    Prepared Statement...........................................    28
Corrine Brown, Ranking Member....................................     2
    Prepared Statement...........................................    31
Hon. Dr. Ralph Abraham...........................................     3

                               WITNESSES

Hon. Alan Grayson, Member of Congress............................     4
    Prepared Statement...........................................    31
Mr. David R. McLenachen, Acting Deputy Under Secretary for 
  Disability Assistance, VBA, U.S. Department of Veterans Affairs     6
    Prepared Statement...........................................    33

    Accompanied by:

        Dr. Rajiv Jain, Assistant Deputy Under Secretary for 
            Health for Patient Services, VHA, U.S. Department of 
            Veterans Affairs

        Ms. Susan Sullivan, Deputy Assistant Secretary for 
            Policy, Office of Policy and Planning, U.S. 
            Department of Veterans Affairs

    And

        Ms. Kim McLeod, Counsel, Office of General Counsel. U.S. 
            Department of Veterans Affairs
Mr. Joseph A. Violante, National Legislative Director DAV........    18
    Prepared Statement...........................................    47
Mr. Aleks Morosky, Deputy Director National Legislative Service, 
  VFW............................................................    19
    Prepared Statement...........................................    53
Mr. Zachary Hearn, Claims of the Veterans Affairs and 
  Rehabilitation Commission, The American Legion.................    21
    Prepared Statement...........................................    57
Mr. Blake Ortner, Deputy Government Relations Director, PVA......    22
    Prepared Statement...........................................    63

                             FOR THE RECORD

Housing Policy Council...........................................    73

 
LEGISLATIVE HEARING ON H.R. 189, H.R. 216, H.R. 245, H.R. 280, AND H.R. 
                                  294

                              ----------                              


                       Tuesday, January 27, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:31 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present:  Representatives Miller, Lamborn, Bilirakis, 
Benishek, Coffman, Wenstrup, Abraham, Zeldin, Costello, 
Radewagen, Bost, Brown, Brownley, Ruiz, Kuster, and Rice.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. We are here to talk about five pieces of 
legislation this morning. In the interest of time, I am going 
to forego a lengthy opening statement and just briefly touch on 
two bills on the agenda which I am proud to have introduced 
before this Congress.
    The first bill is H.R. 280. The language is similar to a 
bill that I introduced last Congress which passed favorably out 
of this committee. H.R. 280 would provide the secretary with 
the authority to rescind a bonus or performance award from any 
VA employee when the secretary deems it is appropriate.
    Now, to ensure a fair process, the provision would also 
afford the employee an opportunity to have a hearing on the 
secretary's decision to recoup their bonus.
    I proposed this legislation last Congress because VA had 
given this committee conflicting statements on whether or not 
it already had the ability rescind bonuses.
    For example, former Secretary Shinseki rescinded the then 
Phoenix director, Sharon Hellman's 2013 bonus because it was 
paid based on an administrative error. Notwithstanding this 
limited authority, VA later confirmed it did not have the 
ability to rescind a bonus that was based on erroneous 
performance data.
    I believe the ability to recoup a bonus based on that or 
manipulated performance data is a tool that the secretary needs 
and that the American public would expect.
    Now, the second bill that I have introduced is H.R. 294, 
The Long-Term Care Veterans Choice Act. This would authorize VA 
for three years beginning October 1 of 2015 to enter into a 
contract on agreement with a certified medical foster home to 
pay for long-term care for certain veterans already eligible 
for VA paid nursing home care.
    It would require that an eligible veteran could receive VA 
home health services as a component of such payments. Medical 
foster homes provide a non-institutional, long-term care 
alternative to veterans who prefer a smaller, more home-like 
and family-style setting than most traditional nursing homes 
are able to provide.
    The VA has been helping place veterans in medical foster 
homes for more than a decade. VA does not currently have 
authority to pay for a veteran to receive care in a medical 
foster nursing home even if the veteran is eligible for VA paid 
nursing home care.
    As a result, service-connected veterans who would prefer to 
receive care in a foster home must pay out of pocket using 
their own personal funds and many are unable to do so because 
of financial constraints.
    Our veterans, particularly those who are service-connected 
and in need of long-term care, deserve to decide for themselves 
where they and how they receive the care they need. And H.R. 
294 would allow them that opportunity.
    Now, given that the average cost of a medical foster home 
is approximately half the monthly nursing home cost, H.R. 294 
would also provide a cost-effective, long-term care option for 
the department.
    And I would urge my colleagues to support both of these 
bills and look forward to discussing them with our witnesses 
this morning.
    Ms. Brown has a bill on the agenda that I am proud to be a 
cosponsor of. And at this time, I will defer to her for her 
explanation and an opening statement.

       OPENING STATEMENT OF RANKING MEMBER CORRINE BROWN

    Ms. Brown. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    This is the first legislative hearing of the 114th 
Congress. I look forward to this committee in our usual 
bipartisan fashion being, busy in looking at bills that will 
help our veterans, and assist the VA in its effort to 
accomplish its mission.
    I am especially pleased that my bill, H.R. 216, was 
included today. H.R. 216 was introduced last Congress by the 
former ranking member and was approved by this committee as 
part of the advanced appropriation bill. I am looking forward 
to working with my colleagues and stakeholders to move this 
bill as fast as we can this year.
    VA's financial management process often looks like 
budgeting-by-crisis. H.R. 216 would provide the framework to 
assist the VA in the steps it has already taken to reform its 
budget process. It is important that everyone have a copy of 
the rules and by putting these processes into statute, we will 
make sure that they do. Providing a road map each year so that 
VA, veterans, and Congress know where we are going is vital in 
reforming the VA.
    My bill will ensure that the steps taken to come up with 
this road map are transparent and that all stakeholders are 
fully engaged in making sure that we provide the resources that 
we are committed to our veterans' demand.
    So thank you, Mr. Chairman, for including H.R. 216 today. I 
am looking forward to hearing from our witnesses, and I also 
want to welcome my colleague from Florida, Mr. Grayson, who we 
joined each other in Orlando.
    The Chairman. Thank you very much, Ms. Brown.
    I want to recognize a new Member to the committee that 
wasted no time in introducing a bill that will affect 
positively the veterans of our country, Dr. Abraham, to discuss 
his bill that is before us today, H.R. 245.
    Dr. Ralph Abraham, you are recognized.
    Mr. Abraham. Thank you, Mr. Chairman.

                STATEMENT OF HON. RALPH ABRAHAM

    I want to address a bill that I have offered, H.R. 245, to 
amend Title 38, United States Code to codify certain existing 
provisions of law related to effective dates for claims under 
the laws administered by the secretary of Veterans Affairs and 
for other purposes.
    This bill is not only important to the veterans of my home 
state of Louisiana but also to millions of veterans nationwide, 
particularly those who live in rural areas or those who may be 
unfamiliar with the claims process of the VBA, Veterans 
Benefits Administration.
    The department has devoted much of its time in recent 
months to devising means to cut time out of the claims process 
in furtherance of its goal to issue rating decisions within 125 
days.
    While all stakeholders are in favor of seeking process 
efficiency, we must remain cognizant that this system is at its 
core meant to be veteran friendly. While the appropriateness 
and the legality, equity of many of VBA's efforts to issue 
faster decisions must bear further scrutiny, this particular 
rule change on informal claims and inferred claims must be 
addressed now.
    And H.R. 245 strikes a middle ground between the current 
operation of VBA and the desired standardization sought by VBA. 
Essentially my bill would provide that if a veteran sent a 
handwritten, informal claim to the VA, the department would 
track the claims as of the date of receipt of the veteran's 
correspondence.
    The department would still send the veteran a standardized 
form for completion. Provided that the veteran returned the 
standardized form within 180 days of the date that the 
department furnished the form to the veteran, the date of the 
veteran's original submission will continue to be recognized as 
the veteran's effective date.
    This protects the veteran as it ensures that any 
departmental administrative delay will not negatively affect 
the veteran's rights.
    My bill also maintains identification of inferred claims 
with those who have the requisite expertise, who are the 
trained professionals of the Department of Veterans Affairs. I 
also understand that veterans may have but be unaware of 
service-connected conditions that may be evidence in their 
medical records but which may be absent from their formal 
claim.
    For example, a veteran might claim a knee injury tied to a 
bad jump but be unaware that a more serious condition such as 
depression attributable to an event in service is also eligible 
for compensation and treatment.
    Well, it is my belief that if a claim comes to the 
Department of Veterans Affairs and there is something the 
department can do to assist that veteran, the department 
should, in fact, assist that veteran.
    There is surely a balance to be struck between department 
efficiency and veteran-friendly practice. And while I will 
agree that some standardization of process is necessary, it 
must also be accomplished in a manner that prioritizes the 
veteran over the bureaucrat. I believe my bill strikes that 
balance.
    I thank the chairman for including H.R. 245 in our 
proceedings today and I urge my colleagues to support its 
passage. I yield back.
    The Chairman. Thank you very much, Dr. Abraham.
    At this time, I want to welcome our colleague from the 9th 
District of Florida, Mr. Alan Grayson, who is the sponsor of 
H.R. 189, The Servicemember Foreclosure Protections Extension 
Act of 2015.
    Mr. Grayson, welcome to the committee. You are recognized 
for five minutes to explain your bill.

                 STATEMENT OF HON. ALAN GRAYSON

    Mr. Grayson. Thank you, Chairman Miller, Ranking Member 
Brown. Thank you very much for inviting me to appear before you 
today.
    I look forward to what this committee under the leadership 
of two Floridians will be able to accomplish for our Nation's 
veterans during the 114th Congress.
    My bill, H.R. 189, The Servicemember Foreclosure 
Protections Extension Act of 2015, would extend for one 
calendar year the foreclosure and eviction protections that 
currently exist for active-duty members of our Military Forces 
and for veterans who have served in our Armed Forces within the 
previous year. These protections are scheduled to expire at the 
end of 2015 unless we act.
    Historically Section 303 of The Servicemembers Civil Relief 
Act has protected servicemembers from foreclosure and eviction 
if an action is filed during or within 90 days after a period 
of military service.
    Section 2203 of The Housing and Economic Recovery Act of 
2008 extended the period of protection from 90 days to nine 
months.
    And in 2012, Congress in a bill which you authored, Mr. 
Chairman, extended foreclosure and eviction protections further 
to one year.
    My bill would ensure that this one-year protection period 
that currently exists is extended through the end of 2016.
    Mr. Chairman, as you will recall, we began discussing this 
provision of law in September of last year after I noticed its 
omission from H.R. 5404, The Department of Veterans Affairs 
Expiring Authority Act of 2014, which was ultimately signed 
into law.
    You voiced your general support for the current foreclosure 
and eviction protections, but you stated that you wished to a 
hold a legislative hearing on the measure prior to moving any 
extension to the floor.
    I am pleased that Senator Sheldon Whitehouse was able to 
pass a clean one-year extension at the end of 2014 that lasts 
through the end of 2015 through the Senate during the closing 
days of the last session of Congress. And I am pleased that you 
have decided to make an extension into 2016, one of the first 
pieces of legislation to consider before the committee in this 
Congress, demonstrating that not everything in Washington, D.C. 
has to wait until the last minute.
    It is vitally important that we pass H.R. 189. Without this 
extension, at the end of this year, the period of foreclosure 
and eviction protections currently made available to 
servicemembers will revert from one year all the way back to 
the original 90-day period. A lapse in a full year's worth of 
protection would harm our young men and women returning from 
war.
    Almost a year ago, the GAO issued a report entitled 
Servicemembers Civil Relief Act, Information on Mortgage 
Protections and Related Education Efforts. Page 13 of that 
report states as follows, quote: ``Our analysis of one service 
source data suggests that all military borrowers, SCRA 
protected or not, had a higher likelihood of becoming 
delinquent in the first year after they left active duty than 
when in the military.''
    For example, in the loan level data from the institution 
that used the DMDC database to check the military status of its 
entire loan portfolio, all of its military borrowers had a 
higher likelihood of becoming delinquent in the first year 
after they left active duty than when in service. And that risk 
declines somewhat over the course of the year, but still 
remained significant.
    Mr. Chairman, we currently protect recent veterans and 
soldiers from the unfortunate situation just described. Clearly 
it is a very real threat to the well-being of the young men and 
women who serve in the Armed Forces.
    Respectfully I urge this committee to continue to ensure 
that the foreclosure and eviction protections that appear in 
the current law continue to exist in full measure throughout 
2016. No soldier should ever have to fight abroad and return 
home only to find that home is no longer there.
    Thank you.
    The Chairman. Thank you very much, Mr. Grayson. I do 
appreciate your tenacity and willingness to work with the 
committee. And I appreciate you bringing the legislation 
forward.
    I will forego a round of questions for Mr. Grayson and I 
would ask that any questions that Members may have of Mr. 
Grayson be submitted for the record.
    And I appreciate you being here today, Mr. Grayson, and you 
are excused.
    Mr. Grayson. Thank you, Mr. Chairman.
    The Chairman. And I would go ahead and invite the second 
panel to come forward and as you are coming forward to the 
table, we will temporarily recess this hearing and go into our 
official business meeting because we do, in fact, have a 
quorum.
    [Whereupon, at 10:45 a.m., the committee proceeded to other 
business.]
    The Chairman. Okay. We will bring back the hearing now on 
pieces of legislation.
    Our second panel is at the table. We will hear from David 
McLenachen.
    Mr. McLenachen. Thank you.
    The Chairman [continuing]. Acting Deputy Under Secretary 
for Disability Assistance for the Veterans Benefits 
Administration of the VA. He is accompanied by Mr. Rajiv----
    Dr. Jain.
    The Chairman. Jain----
    Dr. Jain. Yeah.
    The Chairman [continuing]. Assistant Deputy Under Secretary 
for Health for Patient Services at VA's Health Administration; 
Ms. Susan Sullivan, I get that one pretty well, I think, Deputy 
Assistant Secretary for Policy at VA's Office of Policy and 
Planning; Kim McLeod, Counsel of the VA's Office of General 
Counsel.
    Thank you all for being here today. I appreciate your 
attending.
    Deputy Secretary, acting Deputy Under Secretary, you are 
recognized for five minutes.

 STATEMENT OF DAVID R. MCLENACHEN, ACTING UNDER SECRETARY FOR 
 DISABILITY ASSISTANCE, VETERANS BENEFITS ADMINISTRATION, U.S. 
   DEPARTMENT OF VETERANS AFFAIR, ACCOMPANIED BY RAJIV JAIN, 
    ASSISTANT DEPUTY UNDER SECRETARY FOR HEALTH FOR PATIENT 
 SERVICES, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; SUSAN SULLIVAN, DEPUTY ASSISTANT SECRETARY 
 FOR POLICY, OFFICE OF POLICY AND PLANNING, U.S. DEPARTMENT OF 
   VETERANS AFFAIRS; KIM MCLEOD, COUNSEL, OFFICE OF GENERAL 
          COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. McLenachen. Good morning, Chairman Miller, Ranking 
Member Brown, and Members of the committee. Thank you for the 
opportunity to present VA's views on several bills that are 
pending before the committee.
    Joining me today are Dr. Jain, Assistant Deputy Under 
Secretary for Health and Patient Services; Ms. Susan Sullivan, 
Deputy Assistant Secretary for Policy; and Ms. Kim McLeod, 
Deputy Assistant General Counsel.
    I want to first thank the committee for the opportunity to 
testify concerning the bill we support. H.R. 294, The Long-Term 
Care Veterans Choice Act, we strongly support the concepts 
provided in the bill which permits VA to pay for care for 
veterans transferred to medical foster homes and at the same 
time realize cost savings for a more effective manner of care.
    Despite the strong support, we do have a few technical 
concerns with the approach outlined in the bill. We hope to 
work with the committee going forward to ensure VA is able to 
effectively implement the provisions of the bill.
    We thank the ranking member for her efforts related to H.R. 
216. We are happy to say that VA is undertaking many of the 
efforts outlined in the bill.
    Over the last few years, VA incorporated forward-looking 
environmental scanning into our quadrennial strategic planning 
process. We have been in the process of implementing a 
planning, programming, budgeting, and execution resource 
allocation initiative modeled after similar efforts used in 
other federal agencies.
    Under VA's current organizational structure, the Assistant 
Secretary for Policy and Planning performs the responsibilities 
described for the proposed chief strategy officer.
    Additionally, to better serve veterans, the department has 
been evaluating our organizational structure as identified in 
VA's 2014 through 2020 strategic plan.
    And through the My VA Task Force, VA has been actively 
working on addressing organizational, policy, procedural, 
perceptual, and cultural boundaries that could constrain our 
ability to coordinate, integrate, and deliver benefits and 
services.
    We appreciate the committee's attention on the critical 
topic of VA's strategic planning and are eager to continue to 
discuss these efforts with the committee.
    Mr. Chairman, at this time, the department does not have 
views on H.R. 280. We note that this legislation could change 
laws and policies beyond that of our department and as such, we 
are consulting with other federal government agencies. We will 
continue to coordinate views on this matter and upon completion 
submit them to the committee.
    Finally, we cannot support H.R. 245 because its primary 
purpose appears to be to overrule VA's recent rule making and 
maintain the concept of informal claims. It would codify 
current rules that make it difficult to identify claims and 
unintentionally incentivize submission of claims in nonstandard 
formats that frustrate timely, accurate, and orderly claim 
processing.
    Our final rule which is effective on March 24th is crucial 
to VA's long-term efforts to modernize the claims system for 
the benefit of all veterans. It would eliminate the concept of 
informal claims and replace it with submission of claims in a 
format more amenable to efficient processing while still 
allowing veterans to receive favorable, effective date 
treatment similar to what is available today under current 
rules.
    Also, to process veterans' claims for benefits as 
accurately and efficiently as possible, VA is moving towards a 
paperless electronic system. An important component of that 
transition is that claims must originate on standardized inputs 
that can be easily identified and contain the core data needed 
to process the claim.
    We believe that the final rule carefully and 
comprehensively balances the interest of modernizing the VA 
claims system with allowing claimants to easily initiate claims 
and preserve the most favorable effective dates.
    VA strongly opposes H.R. 245 because it would run counter 
to VA's efforts to assist veterans by improving the efficiency 
of the claims process and would impair our ability to achieve 
and maintain our backlog reduction.
    Mr. Chairman, this concludes my statement. We are happy to 
entertain any questions that you or the Members of the 
committee may have. Thank you.

    [The prepared statement of David R. McLenachen appears in 
the Appendix]

    The Chairman. Thank you very much, and thank all the folks 
for being here today.
    I have got a couple issues. I want to, Mr. McLenachen, talk 
about H.R. 280, which is the bonus rescission bill, but I want 
to ask in a few questions about the current status, if you 
will, of the 2014 bonus of former director of the Phoenix VA 
Medical Center, Ms. Sharon Hellman, that was according to the 
department given in error.
    It is my understanding that the recoupment of her bonus 
from 2013 has stopped because Ms. Hellman has attempted to 
appeal the recoupment to VA's debt management center.
    Could you tell the committee, please, what is the status of 
her appeal and under VA's policy what happens if she loses this 
appeal now that she is no longer an employee of the department?
    Mr. McLenachen. Thank you, Mr. Chairman.
    I will defer to Ms. McLeod to provide you a response to 
that question.
    Ms. McLeod. Mr. Chairman, right now once Ms. Hellman 
requested an appeal of the offset of her salary or the debt 
that she incurred, any offset on her salary had to be stopped 
and she was entitled to a hearing on that debt.
    That hearing goes before a third-party United States Postal 
Service ALJ who will hear her request and will make a decision 
based on her request. So at this time, the VA is waiting to 
find out what the ALJ has done.
    The Chairman. If she loses her appeal, how do you recoup 
the bonus that was given in error?
    Ms. McLeod. If she loses her appeal, we will issue a debt 
like we already did and we will continue to receive the money 
back.
    The Chairman. But she no longer receives a salary from the 
department. That is how you were doing it. You were recouping 
it by taking it out of her current salary.
    So what is the mechanism then that VA has to recoup that 
debt?
    Ms. McLeod. A debt will be issued and that will go to the 
essentially Treasury Department who will recoup that like they 
would recoup any debt from a citizen even though she is no 
longer employed by the VA.
    The Chairman. Retirement pay?
    Ms. McLeod. I am not sure, but I can take that back and 
bring it----
    The Chairman. You have taken no formal position on H.R. 
280, but I would like to know if, in fact, the secretary, if it 
is correct, that the secretary does not have the authority to 
rescind a bonus once it is given; is that correct?
    Ms. McLeod. Have a very limited authority right now. To the 
extent an administrative error occurs, the agency can recoup 
money based on an administrative error. We have no other formal 
process to recoup performance awards.
    The Chairman. What happens if there is criminal activity 
and somebody is charged with a crime, does the VA then have the 
ability to go back and recoup the bonus?
    Ms. McLeod. Not that I am aware of, but we could certainly 
take that back and get back to the committee.
    The Chairman. Would that be an appropriate tool for the VA 
to have because it appears from press reports and information 
that we have gathered that a crime may have been committed? And 
it is stunning to me that the VA does not have the ability to 
go in and recoup a bonus if a crime has been committed.
    Ms. McLeod. I am not able to answer that for the department 
at this point.
    The Chairman. Okay. Thank you very much.
    One question about H.R. 245, Mr. McLenachen. One of the 
VSOs presented a note in their written testimony that the rule 
making suggests there would be a change in VA's treatment of 
inferred claims, that is claims reasonably raised by the 
contents of a veteran's record.
    Previously if a veteran had a condition secondary to a 
condition claimed or even an unrelated condition that could be 
reasonably raised by the record, the veteran would be entitled 
to service connection if a nexus to his service was found.
    Under the rule making set to take effect in March, it 
appears it would not. This system, I would hope is supposed to 
be pro veteran and I want to pose a hypothetical. And you can 
answer hopefully whether or not VA would adjudicate this claim 
under the rules.
    A veteran files a formal claim for an elbow disability 
which he alleges is due to a fall he suffered while in boot 
camp. The veteran is scheduled for a VA examination to assess 
his elbow disability and arrives for the exam in a wheelchair. 
And it is clearly evident that both of the veteran's legs have 
been amputated.
    The military service records in the veteran's VA file 
reflect that the veteran was injured in an explosive blast 
during deployment to Afghanistan and sustained a traumatic 
injury to both legs for which he received a Purple Heart.
    Under the new rule making, would the VA adjudicate a claim 
for the right and left leg disabilities if the veteran only 
formally filed for his elbow condition?
    Mr. McLenachen. Mr. Chairman, I think there may be a 
misunderstanding regarding the final rule that we issued. We 
did not propose a policy change in this particular area. We 
currently adjudicate all claims to include secondary matters 
and ancillary benefits that arise that are within the scope of 
the claim that is filed.
    So we did not propose a change to that. What was in the 
final rule was intended merely as a clarification regarding 
current policy. To directly answer your question, if it is 
determined at that examination and in adjudication of the claim 
that the conditions that were noted were within the scope of 
the claim that was filed, we would adjudicate that as a claim 
that is pending, yes.
    The Chairman. Thank you.
    Ms. Brown.
    Ms. Brown. I just have one quick question, Ms. McLeod, I 
guess.
    Do you know whether any of the federal agencies have the 
authority to recoup bonuses?
    Ms. McLeod. To my knowledge, no other federal agencies have 
that power to do that.
    Ms. Brown. Yes. I yield back my time. I have no other 
questions.
    The Chairman. Thank you very much.
    Mr. Lamborn.
    Mr. Lamborn. Thank you.
    And also in connection with Ranking Member Brown's bill, I 
would like to ask will the future years' veteran program be 
made available online to the public? I know it is discussed 
internally within the VA, and that is for any one of you.
    Ms. Sullivan. Good morning.
    With the current legislation, it doesn't specify whether 
that is publicly available or not. The similar programs in 
Department of Defense and DHS do not provide those publicly. 
They do provide them to the Congress. I would assume that this 
would be implemented the same way.
    Mr. Lamborn. What if the bill isn't passed for whatever 
reason?
    Ms. Sullivan. The programming, the future years' veteran 
plan is an internal tool and would remain as an internal tool. 
It informs our budget process but is, you know, separate from 
that. So we would continue to use it in that manner.
    Mr. Lamborn. So the only way it would be made available to 
the public would be if this legislation were to pass under 
current VA policy?
    Ms. Sullivan. Under current policy, yes.
    Mr. Lamborn. Okay. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Ms. Brownley, no questions?
    Ms. Brownley. No questions.
    The Chairman. Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman.
    I guess I don't understand what is the objection to H.R. 
216 by the VA. I mean, it seems to me we would like to have 
transparency in this process of planning for the budget and the 
VA.
    What is the downside?
    Ms. Sullivan. Thank you for your interest in strategic 
planning in the department.
    We do support the intent of the bill. We are right now 
evolving a lot of our processes, the planning, programming, 
budgeting, and execution process. We are in about our fourth 
year of going through that cycle.
    Basically the objection is we think that it is too early to 
codify it in statute. We would really like to get the processes 
a little bit more mature before we know what is really going to 
work in the long term.
    So we are doing pretty much everything that is in H.R. 216. 
It is the matter of how it is officially codified giving us the 
ability to continue to mature those processes over time.
    Dr. Benishek. Is there some reason that we shouldn't be 
aware of what you are doing? I just don't understand the 
reasoning.
    I mean, that is not a very good answer as far as I can 
tell, Ms. Sullivan, as to why Ms. Brown's idea of making sure 
that we are all aware of what is going on is a bad idea. I just 
don't understand your answer. I mean, we expect it to change 
with time. So I just don't understand that objection, but I 
guess that is the answer that we have.
    I yield back the remainder of my time. Thank you.
    The Chairman. Ms. Kuster.
    Ms. Kuster. No.
    The Chairman. Dr. Abraham.
    Mr. Abraham. Yes, questions for Mr. McLenachen.
    Your written testimony does represent VA's adamant 
opposition to H.R. 245 which in pertinent part seeks to 
preserve the ability of veterans to establish dates of claim at 
the point where the veteran opts to pursue a disability claim.
    One of our president stakeholders has noted in written 
testimony that VA's recent rule making on standard claims, an 
appeals form will, quote, ``create a division between veterans 
with internet access and those without internet access.''
    You have also noted that VA, quote, ``receives an enormous 
volume,'' end quote, of informal claims.
    Considering the opposition to your rule making by the 
several VSOs present today, I find it difficult to overlook the 
fact that VA through its rule-making process ought to 
unilaterally roll back decades worth of pro-veteran policy 
regarding establishment of effective dates.
    This is a ploy to make the VA's job easier and has the 
effect of taking monetary benefits from veterans who have 
earned them.
    Please explain how you can possibly describe your rule 
making as, quote, ``maintaining a pro-veteran process that is 
acceptable,'' end quote, when you will be making it harder for 
so many veterans, to use your words, quote, ``an enormous 
volume,'' end quote, of veterans without internet access to 
establish an effective date at the point where the veteran opts 
to pursue a disability claim.
    Mr. McLenachen. Thank you, sir, for the question. And I am 
glad I have an opportunity to address this concern.
    I want to be very frank with the committee that this was an 
opportunity to demonstrate to you how the rule-making process 
can really work to help veterans at the same time as helping 
VA. I assure you this is not a ploy by VA in any way.
    When we issued our proposed rule, what we did is we 
proposed to incentivize the filing of electronic claims through 
our e-benefits system. That is what we initially proposed to 
do.
    And in the rule-making process, we received comments saying 
essentially you are moving too fast. The primary concerns were 
that we were treating, just as you just suggested, we were 
treating paper claims differently than electronic claims. And 
we hadn't accounted for that and we were not providing the same 
effective date treatment for paper claims as electronic claims.
    So what we did is we completely revamped the rule. What we 
proposed is not in our final rule. What is in our final rule is 
that we treat paper claims exactly the same as electronic 
claims for effective date purposes.
    Secondly, we removed informal claims, but what we really 
did is we replaced it simply with, as one of the commenter 
suggested, why don't you just come up with a standard informal 
claim form. That is essentially what we did, sir.
    We have an intent to file form which is a one-page document 
that does exactly the same thing as informal claims. It is just 
that it is on a standard form.
    And I submit to each and every one the Members of the 
committee that your constituents deal with standard forms every 
day of their lives in every situation where they encounter 
private and public entities, just not at VA.
    And so when we talk about striking the proper balance, sir, 
we really believe that we have done that in the rule-making 
process. We replaced the informal claim process with what we 
are now calling intent to file. A one-page document can be 
submitted in three different ways and this is how you address 
the issue of people that don't have internet access.
    We have gone so far as to make it even more liberal to file 
an intent to file form. The reason is under current law, you 
have to identify the disability, your symptoms. That is 
required by a court decision and we implemented that decision 
in our procedures.
    Well, under the new regulations, we are not going to do 
that. All you have to do on this form is three things, tell us 
whether you want compensation pension or a survivor's benefit; 
two, provide us your identifying information; and, three, sign 
the form, either you or your representative. And that will 
establish your effective date.
    Three ways you can do it. You can pick up the phone and 
call one of our call centers. You can walk into one of our 
offices and somebody will fill out the form for you and third 
you can start an electronic claim and when you start that 
electronic claim, it preserves the effective date for you.
    So to address all of those concerns, sir, that you just 
mentioned, we did that in the final rule. So the only thing 
that is left is there is a one-page standard form. We 
essentially did what the commenters said, create a form for 
informal claims, and that is what we did.
    So that really strikes that balance that you mentioned, 
sir, when you were describing your bill was the balance between 
allowing VA to easily identify claims and quickly process them 
versus spending resources needlessly trying to figure out 
whether something is a claim or not.
    Mr. Abraham. But what you have done is you have converted 
that informal claim all of a sudden to a standardized formal 
document and that resets the time clock for this veteran.
    Mr. McLenachen. Sir, it does the same thing as current 
rules for informal claims. It establishes an effective date. So 
you come into us and you say I want to apply for compensation. 
And if you walk in, we have an employee that is going to sit 
there and type that information in for you.
    It establishes it in our systems and you get the same 
effective date that you would get under the informal claims 
process. There is absolutely no difference. The only 
distinction is it is either a walk in submitted on the standard 
paper form or you start it electronically.
    Mr. Abraham. How long will it take the VA then to respond 
or process that informal claim on the standardized form once 
they get it?
    Mr. McLenachen. Whether we are talking about informal 
claims today or intent to file under the new rules, that is not 
a claim. What happens is that that preserves the effective date 
if the claimant comes in within a year and files a claim.
    Mr. Abraham. And if they receive an informal letter?
    Mr. McLenachen. No. We have a statutory obligation when we 
receive an informal claim, and we will under the intent to file 
process, we have a statutory obligation to provide the claimant 
the application form.
    So let's assume that you called the call center and you say 
I want to file for compensation. The call center logs in that 
intent to file. It preserves your effective date and we have an 
obligation to send the proper application form and tell the 
claimant everything they have to do to complete that 
application. That is a statutory obligation today and it will 
be under the final rule.
    Mr. Abraham. I yield back, Mr. Chairman.
    The Chairman. Ms. Rice, do you have any questions?
    Miss Rice. No.
    The Chairman. I have one quick one. In your testimony, you 
said the primary intent of this bill appears to be to overrule 
VA's current rule making?
    Mr. McLenachen. Yes, sir.
    The Chairman. Does it offend you that Congress would 
attempt to overrule your rule making?
    Mr. McLenachen. No, sir, not at all. And let me just 
suggest to----
    The Chairman. No. That is all I needed was----
    Mr. McLenachen. Okay.
    The Chairman [continuing]. Just a yes or no. It appeared 
that you might have your feathers ruffled just a little bit and 
I didn't want that to be the case.
    Mr. Costello is gone. Mr. Bost is gone.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Mr. McLenachen, I understand the department has some issues 
with 294, H.R. 294, some technical issues with that, and you 
might have some suggestions for us on that Long-Term Veterans 
Choice Act.
    And I think we all look forward to discussing some of those 
technicalities with you, but really what I am asking today is 
will you give us the assurance that you will work with us in a 
very timely fashion on those, on any technical corrections you 
may have so that we can move forward in a very timely fashion?
    Mr. McLenachen. Yes. Dr. Jain has a particular interest in 
doing that with you, so I will let him address it.
    Dr. Wenstrup. Okay. Thank you.
    Dr. Jain. Thank you, Congressman, for that question.
    And I really want to thank Chairman Miller for really 
authoring this bill and also for the committee for considering 
it.
    Just these are minor issues in some ways, but they could be 
challenging and we really want this program to function really 
well for our veterans.
    For example, there is a term used in the bill for transfer 
to homes. And for many clinicians, that could mean that this 
will require an admission to a hospital bed before the veteran 
becomes eligible for this benefit, so rather than being 
directly admitted from the veteran's home to the foster home. 
So that is just one issue.
    The other issue is the word contracts and we believe that 
there are some of our foster home operators that may have 
challenges with the contracting process. It can be pretty 
lengthy and complicated. So if there is a way to tweak some of 
that language, those are the only issues that we are talking 
about.
    Dr. Wenstrup. You mean a simpler contract of some type, is 
that----
    Dr. Jain. Or perhaps defining the agreements a little bit 
better, but I will defer to my counsel who may be able to 
clarify that issue.
    Dr. Wenstrup. Thank you, Doctor.
    Ms. McLeod. We would have to take that back and bring it 
back to the committee, but we are happy to work with you all on 
that.
    Dr. Wenstrup. I appreciate it. Thank you.
    And I yield back.
    The Chairman. Dr. Ruiz, do you have any questions?
    Mr. Ruiz. No, sir.
    The Chairman. Mr. Bilirakis, you are recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Mr. McLenachen, I want to get back to H.R. 216, Ms. Brown's 
bill. I want to follow-up on Dr. Benishek's questions.
    Again, the VA indicates its support for the principles and 
concepts of H.R. 216, but it hasn't embraced looking at those 
principles in statute. And, again, I want to give you another 
opportunity.
    Why not in statute with respect to the legislation's 
requirement for VA to submit resource estimates over a five-
year horizon that are in line with the department's goals and 
objectives for various programs? What is the problem with 
embracing the concept in statute if you agree with it in 
principle? And, again, you know, DoD does it. Why not the VA?
    Mr. McLenachen. I will defer to Ms. Sullivan on that 
because she is really the expert in this area.
    Mr. Bilirakis. Okay. Ms. Sullivan, please.
    Ms. Sullivan. Again, thank you in general for the support 
for the concept in the bill.
    Again, we are still kind of working on it. DoD has had 
decades to put that process in place, work the process, and 
make sure everybody understands the pieces. We are in our 
fourth year. I think we need to work more and come and give you 
more information on what that process is and the types of 
things that we are working through.
    There are several areas in the bill. The programming the 
future years' veteran plan is one, some of the issues there or 
the concerns are you kind of putting it together with the 
budget. Those are two separate processes. We don't want to 
confuse the two or constrain future budgets from what is in the 
five-year plan.
    Some of the other areas looking at the quadrennial review, 
what that looks like for VA is very different from what that 
looks like for DoD or DHS. We actually take their quadrennial 
reviews as input to us. So there are some pieces on how we look 
at how those processes in those other departments really apply 
to VA.
    Mr. Bilirakis. Okay. Well, would you agree to work with Ms. 
Brown on this particular issue?
    Ms. Sullivan. Absolutely.
    Mr. Bilirakis. I mean, accountability is so very important. 
These are taxpayer dollars. And, you know, Ms. Brown is a 
fellow Floridian and we care about our veterans first.
    So would you agree to work with her and possibly invite me 
in the meeting as well because I think we need to get this done 
for our veterans?
    Ms. Sullivan. Absolutely. Happy to work with the committee.
    Mr. Bilirakis. All right. Very good. Thank you.
    I yield back.
    The Chairman. Ms. Sullivan, you said you have been working 
on it for four years. Do you think that putting that force of 
law behind it might encourage you to move a little quicker in 
establishing what Ms. Brown is trying to accomplish?
    Ms. Sullivan. For some of these, they are annual processes, 
so it still is going to take one cycle per year. That can't go 
any faster. We did do a lot with the strategic plan that we 
developed that came out last year in 2014 and we will start on 
our next cycle for the strategic plan. Again, that is a four-
year cycle in itself. Obviously anything in legislation is 
going to get attention. I don't know if that will help mature 
the process any faster.
    The Chairman. I would hope it would. If it is in law, I 
would hope that it would encourage you to move quicker. I think 
Ms. Brown has got a great idea and it is something that 
everybody on this committee can get behind and support.
    I mean, we give you enough time to do it without putting it 
in law and you still come forward opposing, agreeing with the 
concept, but opposing putting it in statute. And it is hard for 
some of us to understand that.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And, Ms. McLeod, on House Bill 280, it is my understanding 
that Secretary McDonald has no position on that bill right now. 
Am I correct in that?
    Ms. McLeod. That is correct.
    Mr. Coffman. Okay. That really surprises me because he came 
onboard to clean up the VA from the scandals of its past that 
seem to continue to this day.
    And so if I understand the bill right--first of all, in 
your testimony earlier, you made the statement that VA's only 
ability to claw back a bonus is if there has been an error and 
that it should have been--it was never authorized or for the 
amount that it was authorized for. Am I correct in that?
    Ms. McLeod. Essentially, sir, yes. The only ability right 
now is a very narrow one when there has been an administrative 
error committed.
    Mr. Coffman. Yeah. So we have had incidents that are well-
known today in the VHA system where management was complicit in 
a coverup involving appointment wait times. And those same 
managers were given bonuses based on a false reporting of 
performance where veterans suffered from that.
    Then the situation in my district where we have a hospital 
half built, hundreds of millions of dollars over budget, years 
behind schedule, along with other hospitals that have some of 
the same problems that are currently being built, major 
construction projects by the VA.
    The individual in charge of those projects within the 
leadership of the Veterans Administration received over $60,000 
in bonuses since 2009, Glenn Haggstrom. So, you know, clearly 
he didn't meet the criteria of the goals that were established.
    And so what you are saying is there is no mechanism under 
current law to claw back bonuses from somebody who clearly 
didn't meet when new information comes out and they clearly 
didn't meet the goals that were expressed as a requirement to 
get the bonus or criminal conduct was committed during that 
period of time, that there was no mechanism to claw back and 
current law of that bonus. I am correct in that, right?
    Ms. McLeod. You are correct.
    Mr. Coffman. And so we have a secretary of the Veterans 
Affairs that can't make a decision on something so obvious. I 
mean, I think it is just extraordinary. And what it says to me 
and what it says to the veterans of this country is nothing has 
really changed, nothing has really changed in the Department of 
Veterans Affairs.
    And I want you to take the message back to the secretary 
that he ought to make a decision on that and the decision ought 
to be to support this bill.
    I yield back.
    The Chairman. Thank you.
    Ms. Brown.
    Ms. Brown. Thank you, Mr. Chairman. I do have a question 
for Ms. Sullivan.
    I am a little confused. Did I hear you correctly that you 
are concerned with forward protection separate from the budget?
    Ms. Sullivan. I am sorry. Can you repeat the question?
    Ms. Brown. Concerned with keeping the forward year 
protections separate from the budgetary process.
    Ms. Sullivan. So the five-year look at the resource 
allocation is a tool that informs the budget. There is some 
concern if those are both out together that those future year 
projections would set expectations for future year budgets and 
not provide some of the flexibility to deal with emerging 
priorities, so almost setting that in stone for the five years 
out and not being able to go through the budget formulation 
process.
    Ms. Brown. Well, I think that is what we want. We want to 
know what are the plans?
    Ms. Sullivan. As a plan, as long as it is able to then be 
adjusted during the budget cycle, not laying--for us to see 
five years in the future and lay that kind of in stone, it is a 
planning tool to look at those outward projections but not 
something that--again, the perception that that would then be 
the budget for that future year. There still is the budget 
process as a separate process.
    Ms. Brown. Why wouldn't you be able to adjust it if it is 
just a planning tool?
    Ms. Sullivan. I think the look now is whether or not those 
that are receiving it are able to, you know, kind of give us 
that flexibility as we go into the budget formulation cycle to 
look back and say, well, four years ago, you said it was going 
to be this and now you are coming in with this budget. So, 
again, it is a planning tool. It informs the budget.
    Ms. Brown. I understand that but as you plan, different 
factors come. Maybe we will get additional veterans in certain 
categories or, you know, it is lots of factors that is going to 
affect that. But I think what we are trying to do is to see 
your road map so that we can have some idea as to your planning 
process also.
    Ms. Sullivan. I understand.
    Ms. Brown. We clearly need to get together. Thank you.
    The Chairman. Ms. Sullivan, if I could follow-up on what 
Ms. Brown was just asking. Shouldn't Congress have the ability 
to look at year two, three, four, and five to help determine 
how you arrived at the current budget year request? Again, what 
is the fear that VA has to putting a five-year plan out to the 
public?
    Ms. Sullivan. I will have to take back some of the details, 
but, again, the other departments who do this, that is not 
public information. We are trying to, you know, look at similar 
processes to DoD and DHS. We obviously share our strategic plan 
and our planning processes. We do consult with Congress and the 
VSOs on doing that.
    The Chairman. I serve on the Armed Services Committee and 
we get a five-year budget picture. I just don't understand what 
VA's problem is with giving Congress the information on which 
you base your current year's budget proposal on.
    Ms. Sullivan. At this point, we are still maturing that 
process. I don't know if it is----
    The Chairman. How long will that process take to become 
mature?
    Ms. Sullivan. I can't answer that. I am sorry. I will have 
to take that back.
    The Chairman. Okay. I would like an answer.
    Ms. Sullivan. Okay.
    The Chairman. Ms. Radewagen, do you have any questions?
    Mrs. Radewagen. No, I don't, Mr. Chairman. Thank you.
    The Chairman. Ms. Brown, one final question.
    Ms. Brown. Thank you.
    The Chairman. And then we will go to the third panel.
    Ms. Brown. To my understanding NASA does the forward budget 
and they make theirs public.
    Ms. Sullivan. I will have to look into that. Thank you.
    Ms. Brown. Congress gave advance appropriations to VA. We 
do it and, you know, I was very involved and very instrumental 
in making sure that VA got advanced appropriations. What we are 
saying is we want to be a part of that planning process.
    Ms. Sullivan. Appreciate that. Yes, we will come and meet 
with you and provide some more information and work with you on 
that.
    Ms. Brown. Thank you.
    I yield back.
    The Chairman. Yeah, I think it would be a good idea that we 
have you come back and talk with the entire committee about Ms. 
Brown's legislation. I think we would all be interested in 
knowing where the fear is from VA with making those numbers 
available to Congress.
    I want to thank you all for being here today.
    And we have got a third panel, so the second panel is 
excused and I would invite our third panel to please come to 
the witness table.
    As they are coming forward, joining us today is Mr. Joe 
Violante, National Legislative Director for Disabled American 
Veterans; Aleks Morosky, Deputy Director of the National 
Legislative Service of the Veterans of Foreign Wars of the 
United States; Mr. Zachary Hearn, Deputy Director for Claims of 
the Veterans Affairs and Rehabilitation Commission for The 
American Legion; and Mr. Blake Ortner, the Deputy Director of 
Government Relations for Paralyzed Veterans of America.
    I appreciate you all being here. All of your complete 
written statements will be made a part of the record.
    Mr. Violante, you are recognized for five minutes.

                STATEMENT OF JOSEPH A. VIOLANTE

    Mr. Violante. Thank you.
    Mr. Chairman, Ranking Member Brown, Members of the 
committee, DAV appreciates the opportunity to testify before 
this committee on the various bills under consideration.
    H.R. 216 would establish new planning and budgetary 
processes and make changes affecting VA's ability to develop 
and implement budgets and strategic plans. The bill directs the 
secretary to submit to Congress a future years' veterans' 
program and a quadrennial veterans' review modeled on similar 
procedures for DoD and Homeland Security. The legislation would 
also establish the new position of chief strategic officer.
    Mr. Chairman, for decades, DAV and our partners in the 
Independent Budget have pointed out mismatches in funding for 
VA programs which became evident in last year's scheduling 
scandal and access crisis.
    This legislation would help to address this problem by 
adding more transparency and rigor to VA's budget and planning 
process. DAV generally supports this legislation, although we 
do have a few concerns.
    First, the legislation must make clear that both the 
quadrennial review and the future years' veterans' program are 
made publicly available when they are delivered to Congress.
    Second, the bill gives OMB some ability to constrain VA's 
planning by setting guidance on the overall resources available 
to VA. It is vital that any long-range strategic planning 
process produce honest assessments of veterans' needs and the 
cost to meet them.
    Third, the bill does not make clear how the chief strategic 
strategy officer will interact with VA's chief financial 
officer or the under secretaries. This might add a new 
dimension of bureaucracy that could complicate rather than 
improve budgeting.
    Finally, we are concerned about the potential of 
diminishing the influence of veteran stakeholders when setting 
out VA's long-term missions and priorities.
    H.R. 245 would reestablish certain safeguards for veterans 
who currently file informal claims. Under a VA rule that will 
take effect in March, claimants will no longer be able to file 
informal claims through written communications establishing 
only an intent to file a claim process that must be completed 
on standardized forms. As a result, veterans may lose some 
accrued benefits.
    The bill seeks to remedy this situation by requiring that 
claimants who send written communications to VA indicating an 
intent to file a claim would be considered an informal claim 
and would have up to 180 days to complete the required forms to 
protect their effective date.
    DAV supports the purpose of this provision. However, we 
strongly recommend that the informal claim period be restored 
to a full year, same as the new intent to file a claim 
procedure to ensure that all veterans who file claims are 
treated equitably regardless of how they file them.
    DAV supports H.R. 294. Some severely disabled veterans who 
are unable to live independently at home choose to reside in 
more intimate home-like alternatives to a nursing home called 
medical foster homes. While some veterans cannot afford medical 
foster homes, other veterans who can are required by law to pay 
the full cost out of their own pockets. Many of them are 
service connected veterans who could choose to live in a more 
expensive nursing home setting fully paid for by VA.
    This measure would give VA a three-year authority to pay 
for veterans who want to reside in a VA approved medical foster 
home, saving tax payers money. However, despite the laudable 
aim of this measure we do not believe its goal will be 
successfully achieved unless Congress fixes VA's authority to 
use provider agreements. Since VA currently is unable to use 
its provider agreements authority to pay for medical foster 
homes, the alternative is to use contract vehicles.
    The cost of the burdensome reporting and auditing 
requirements inherent in federal contracting, we believe some 
medical foster home providers would not be willing or capable 
of entering into complex contracts with VA. We urge the 
committee to pass these bills and we pledge to work with you 
and your staff to address our concerns. That concludes my 
testimony, I will be happy to answer any questions.
    The Chairman. Thank you very much. Mr. Morosky, you're 
recognized for five minutes.

                   STATEMENT OF ALEKS MOROSKY

    Mr. Morosky. Mr. Chairman and Members of the committee, on 
behalf of the men and women of the Veterans of Foreign Wars of 
the United States and our auxiliaries, I would like to thank 
you for the opportunity to testify on today's pending 
legislation.
    The Service Member Foreclosure Protection Extension Act: 
The VFW supports this legislation which would continue for one 
year the extension of the period that veterans are protected 
from mortgage sale or foreclosure following their military 
service from 9 to 12 months. The VFW believes that veterans 
should be afforded the maximum opportunity to gain financial 
stability when transitioning from active duty to civilian life 
without the threat of losing their homes.
    A January 2014 GAO report found that military borrowers 
were at a higher risk of mortgage delinquency in the first year 
after leaving active service. But with these protections in 
place we are more likely to resolve those delinquencies than 
others. Accordingly, the VFW believes that the one-year 
protection window should not only be extended, but we urge 
Congress to make this policy permanent.
    The Department of Veterans Affairs Budget Planning Reform 
Act: This legislation would require VA to estimate and report 
to Congress its budgetary needs for four fiscal years. It would 
also establish a quadrennial veterans' review to ensure VA has 
a strategy to meet the future needs of our nation's veterans. 
The VFW strongly agrees that VA should constantly analyze 
veterans' needs and develop a strategy that will enable it to 
address such needs, not just today and tomorrow, but for years 
to come.
    The quadrennial review concept has been successful for DOD 
in prioritizing its strategic pillars to ensure it is able to 
protect America and advance our interests abroad. The VFW 
supports the concept of a quadrennial veterans' review, but we 
do not believe VA should prioritize veterans' benefits.
    VA benefits and programs are vital to the veterans they 
serve. One benefit is not more important than the other and 
should not be treated as such. Instead, we suggest the 
quadrennial review analyze the fiscal demands of the full range 
of programs and capabilities. This would ensure VA adjusts its 
programs to fit emerging trends and maximizes its finite 
resources to meet veterans' needs.
    The bill would also require VA to conduct a study to ensure 
its functions and organizational structure are effective, 
efficient, and economical. The VFW applauds Secretary Robert 
McDonald for realizing the VA's organizational structure needs 
to change.
    In November he announced the My--VA Initiative to, among 
other things, reorganize the department's structure to better 
meet veterans' needs. VFW believes the VA should be given the 
opportunity to fully implement Secretary McDonald's 
reorganizational initiative.
    H.R. 245: This bill makes two significant changes. First, 
the bill codifies the effective date for a claim to include the 
date VA receives an informal claim. This is a much needed 
provision that will provide clear understanding for a 
claimant's effective date of claim.
    The second provision places a 180-day time limitation on 
veterans who have filed an informal claim to complete and 
return VA Form 21-526 to VA. The VFW opposes this provision. 
Current law provides claimants a full year to complete and 
return the application form other under circumstances. The VFW 
believes there should be parity between existing law, and 
recommends that claimants are afforded a full year to submit 
their formal claim. This does not place an additional burden on 
VA and will not count towards the time the claim takes to be 
adjudicated.
    H.R. 280: The VFW supports this legislation. Employees 
receive bonuses as an incentive in recognition for superior 
work performance. But if a bonus is found after the fact to be 
awarded to an employee who manipulated data, put veterans at 
risk of harm, or in some other way defrauded the Government to 
receive that bonus, the Secretary should have the authority to 
recoup the bonus amount.
    The Long Term Care Veterans Choice Act: The VFW supports 
this legislation which would allow enrolled veterans in nursing 
home care to transfer into adult foster home care at their 
request. Currently, veterans who choose to live in adult foster 
homes must do so at their own expense. To grant VA the 
authority to reimburse adult foster homes would provide 
veterans with an additional residency choice potentially 
improving the quality of life for those who would prefer this 
option.
    The VFW strongly believes that all non-VA care services 
should be provided in conjunction with proper care 
coordination. The VHA medical foster home procedures handbook 
requires an interdisciplinary VA home care team to provide the 
veteran with primary care, regularly communicate with the 
foster home caregiver, and monitor the care provided with 
frequent unannounced visits. The VFW feels that these would 
ensure adequate care coordination and recommends that the care 
coordination policies outlined in that document should be made 
permanent by adding them to the language of this legislation.
    Mr. Chairman, this concludes my statement, and I will be 
happy to answer any questions you or other Members of the 
Committee may have.
    The Chairman. Thank you very much. Mr. Hearn, you are 
recognized for five minutes.

                   STATEMENT OF ZACHARY HEARN

    Mr. Hearn. Thank you. Good morning, Chairman Miller, 
Ranking Member Brown, and Members of the committee. On behalf 
of National Commander Helm and the 2.4 million members of The 
American Legion, we are honored to speak this morning regarding 
proposed bills impacting our nation's veterans.
    Based on the slate of bills for consideration The American 
Legion supports the following bills.
    H.R. 189, the Service Member Foreclosure Protection Act of 
2015.
    H.R. 216, the Department of Veterans Affairs Budget 
Planning and Reform Act of 2015.
    H.R. 245, H.R. 280.
    H.R. 289 addresses alternative solutions to veterans 
incapable of independent living. Currently, The American Legion 
does not have a position pertaining to this bill, however, we 
are continuing to consider the solutions the bill provides. A 
complete discussion of The American Legion's position can be 
found in our written testimony that you have before you today.
    The American Legion supports H.R. 245. In recent years the 
Veterans Benefits Administration has taken steps to improve its 
efficiency in the adjudication of claims. One much publicized 
effort was the virtual transformation in the claims process. 
Another effort was the VA's issuance of regulations that would 
change a decades old policy regarding the submission of 
informal claims. The American Legion opposes this change.
    Historically, veterans were permitted to submit written 
correspondence to VA indicating their intent to file a claim 
for disability benefits. This process did not require a 
specified form, it simply required a written communication 
indicating a desire to file for disability benefits for a 
particular condition.
    In September 2014 VA issued regulations that would go into 
effect in March 2015 that would eliminate the informal written 
claim as a marker for an effective date of benefits. Instead, 
veterans were directed to submit claims electronically, orally 
to a VA employee, or through a new VA form to protect the 
earliest possible effective date.
    Veterans who name the benefit they seek in a written 
communication to the VA are punished because that communication 
under the new regulations would not protect the earliest 
effective date. What really is happening is that the BVA is 
using the new regulations to artificially reduce the number of 
pending claims. It is counterintuitive for veterans to not 
mention the benefit that they seek.
    Compelling veterans to file via electronic means could be 
detrimental. The National Center for Veterans Analysis and 
Statistics reported the average male veteran was 64 years old 
in 2011, and the census bureau reports that less than half of 
Americans over 65 years old have access to the Internet.
    If a sizable portion of the veteran population does not 
have regular access to the means necessary to file and then 
complete application, is VA adequately serving the veteran 
population? It should be mentioned that the issue of expediency 
on the front end of the claims process isn't the only reason 
why VA pursued this policy.
    Another justification for this process was that a number of 
inferred claims hadn't been recognized by VA at the regional 
offices. It was only when a claim was appealed to the Board of 
Veterans Appeals that a BVA judge recognized the nature of the 
claim.
    VA's requirement for the standardized form suggests that 
instead of embracing its responsibility to properly train its 
employees, VA opted to advocate its responsibility to both its 
employees and the veteran community through removing the policy 
altogether. Ultimately, VA's policy pertaining to the 
electronic submission of claims will have a deleterious effect 
upon effective dates.
    If veterans, regardless of age, do not have access to the 
Internet then they may have to endure additional steps to file 
a claim losing their effective date, and ultimately the payment 
of their disability benefits.
    H.R. 245 codifies a longstanding practice of VA permitting 
informal claims without the requirement of a standardized form 
or electronic submission. Moreover, it permits veterans to 
maximize the benefits earned through their dedicated service to 
this nation.
    Again, on behalf of National Commander Helm, and 2.4 
million members that comprise The American Legion, we thank the 
committee for hearing our testimony today. And I will be happy 
to answer any questions that this Committee may have.
    The Chairman. Thank you, Mr. Hearn. Mr. Ortner, you are 
recognized for five minutes.

                   STATEMENT OF BLAKE ORTNER

    Mr. Ortner. Chairman Miller, Ranking Member Brown, and 
Members of the committee, Paralyzed Veterans of America would 
like to thank you for the opportunity to testify today on the 
legislation before the committee. PVA supports H.R. 189. It is 
our belief that the extension of this foreclosure protection 
should have been included with other extenders that were passed 
in the 113th Congress and that was inadvertently left out.
    PVA generally supports the intent, however, we have 
concerns regarding H.R. 216, similar to those expressed in 2013 
when PVA testified on similar draft legislation. This 
legislation establishes new planning and budgeting processes as 
well as study and make organizational changes affecting VA's 
ability to develop and implement budgets and strategic plans. 
Our concerns are similar to those expressed by the panel today.
    Long range strategic planning is vitally important and VA 
does and must continue to do this. VA annually prepares and 
submits to Congress and the public a performance and 
accountability report to show how well VA's strategic goals are 
being met. In addition, VA's annual budget submission lays out 
in great detail the programs and policies designed to achieve 
VA's strategic goals. VA also supports two dozen ongoing 
advisory committees to provide outside perspective and Congress 
has authorized commissions and task forces to look at major 
issues.
    It is not yet clear how or if the creation of a quadrennial 
veterans' review would improve on these ongoing strategic 
planning processes. Similarly, it is not clear whether the 
creation of a future years veterans' program would lead to 
either more transparent or more accurate budgets or 
appropriations. And based on Ms. Sullivan's testimony, 
transparency does not appear to be a goal.
    There are also questions about the creation of the new 
Chief Strategy Officer. The language of the legislation gives 
the CSO significant independence in overseeing all planning and 
programing throughout VA. Would the CSO have overlapping 
authority with the under secretaries? How would the CSO and the 
CFO interact during preparation of VA's budget? Are they co-
equal? And how would disagreements between them be settled? 
Would this lead to greater harmony or conflict within VA's 
budget formulation process?
    We also have questions about the role of veterans' service 
organizations and the development of the QVR. As organizations 
with great experience and expertise in dealing with veterans, 
will this Board consultation process dilute our input? VSOs are 
not idle stakeholders. We are concerned about putting us on par 
with less interested, informed, and involved stakeholders 
during the consultation process. Although we do have questions 
about this legislation, I want to emphasize we have no 
questions about the sincere intentions and aims of the sponsors 
to this legislation.
    PVA supports H.R. 245 to codify existing provisions of law 
relating to effective dates of claims, in particular the 
informal claim procedures. Because the veterans may not realize 
the intricacies of claiming benefits, some may submit claims on 
their own which might simply consist of a letter presenting 
their case. PVA welcomes provisions requiring the Secretary to 
provide a claims application form when the informal claim is 
received, but agree that the informal claim continue with the 
same weight of law, unbiased consideration, and receipt date 
had it been a formal claim.
    PVA is not opposed to provisions of H.R. 280 and believes 
giving the Secretary some kind of leverage to hold senior staff 
more accountable is valuable. However, it is critical that the 
Secretary not enjoy any sort of carte blanche authority to 
strip bonuses. Concerning the time frame, PVA does not believe 
that this authority should continue in perpetuity, but be of 
sufficient length to ensure that behavior discovered in the 
future can be acted upon. Let us also be very clear, we do not 
feel that this limit should apply in cases of clear fraud or 
criminal activity.
    A second concern regards the rights of the employee for a 
review of the recoupment. PVA is not certain a hearing with the 
Secretary is the best or most fair venue for the review as it 
would establish the Secretary as the arbiter of his or her own 
decision.
    PVA generally supports H.R. 294 regarding the transfer of 
veterans to non-VA adult foster homes. PVA believes that VA's 
primary obligation involving long-term support services is to 
provide veterans with quality medical care in a healthy and 
safe environment. It is PVA's position that adult foster homes 
are only appropriate for disabled veterans who do not require 
regular monitoring by licensed providers, but rather have a 
catastrophic injury or disability and are able to sustain a 
high level of independence.
    When these veterans are transferred to adult foster homes, 
care coordination with VA specialized systems of care is vital 
and the veteran must be regularly evaluated by specialized 
providers trained to meet the needs of their specific 
conditions. Mr. Chairman, this concludes my statement and I 
would be happy to answer any questions.
    Mr. Chairman. Thank you, Mr. Ortner, very much and I would 
like to go ahead and yield for questions to the Chairman of the 
Sub Committee, Dr. Abraham.
    Mr. Abraham. Thank you, Mr. Chairman. Mr. Ortner, your 
testimony on H.R. 245 noted that as VA tries to reduce its 
claims' backlog there is a risk that the department will look 
for methods to avoid claims that are difficult to complete. I 
am very concerned by the state of affairs as ``difficult 
claims'' may be those of our most serious, severely disabled 
veterans. Would you elaborate, please, on this concern that you 
and I share a bit more about how the 2015 goal to eliminate the 
claims' backlog may actually create reverse incentives for VVA 
to strategize methods to avoid hard claims?
    Mr. Ortner. Yes, sir, I think in our full testimony we 
discuss a little bit about the concerns of both trying to avoid 
some of those claims that are possibly more difficult. And the 
informal claim is one of those that you definitely run into a 
problem with because of the requirement to collect the 
evidence. Probably of greater concern is the risk of those 
claims being pushed off as we discussed in a hearing last week 
have to do with becoming grounds for more appeals.
    So I think that is our concern. I think the stress or the 
sword of Damocles hanging over the heads regarding the 2015 
requirements can potentially push people into trying to speed 
things along or trying to avoid those issues that may 
complicate them meeting that goal.
    Mr. Abraham. Thank you. One more question. Mr. Violante, 
your testimony recommend that the informal claim period be 
expanded beyond that which is currently set forth in H.R. 245 
and extend to a full year. Tell me again why your organization 
believes that that full year is necessary as opposed to the 180 
days.
    Mr. Violante. Well, currently the law allows for one year 
for a veteran to file it. Under their proposed rule change the 
VA has, they would also allow one year from the intent to file 
a claim for a veteran to file his formal appeal. So we believe, 
number one, one year gives a veteran sufficient time. There is 
a lot of medical problems sometimes that arise that keep him 
from filing these claims, but it would also keep the same time 
that is in place now as well as what VA intends to do with 
their intent to file.
    Mr. Abraham. Thank you. I have one other question. Mr. 
Hearn, good to see you again, you are on the sub-committee. 
Your testimony on H.R. 245 noted that The American Legion does 
not agree with the department's rule-making as it regards to 
``inferred'' claims. Did The American Legion state its opinion 
to the VA during the rule-making process? And, if so, to what 
extent did dialog occur on these concerns?
    Mr. Hearn. The period to comment, I think it opened up in 
late 2013, The American Legion submitted their comments 
regarding this issue. I think December 31st was the deadline to 
submit the comments pertaining to this. We have had our 
concerns about this going back over the last 12 months. I have 
a copy of those comments if you would like to see them. But the 
VSOs were open and VA allowed for these comments to be made and 
right from the very beginning we had concerns and we had very 
sincere concerns regarding this, and regardless VA continued to 
move down the path.
    Mr. Abraham. I yield back.
    Mr. Chairman. Ms. Brown.
    Ms. Brown. I think Ms. Brownley has a question.
    Mr. Chairman. Ms. Brownley.
    Ms. Brownley. Yes, just quickly. I certainly agree with the 
argument that there should never be a rule that would prevent 
or delay in any way veterans from getting their benefits. And, 
Mr. Hearn, in your testimony it seemed as though, and correct 
me from the other VSOs if I am summarizing incorrectly, but it 
seems as though the issue for most VSOs is about the time frame 
it is not necessarily about the standardized form.
    But, Mr. Hearn, in your testimony you do highlight the 
issue around the informal claim and not going to a standardized 
form in addition to the not going 180 days but going for the 
full year. So could you just describe to me sort of in what 
form how many informal claims are we getting from veterans at 
this particular point in time and what do they sort of look 
like?
    Mr. Hearn. An informal claim, it can be submitted on line 
paper, on any sort of document. It is just a level of written 
correspondence to VA indicating that there is an intent to file 
for a particular medical condition. As far as the numbers I 
would have to go back and get those for you. But the problem 
with this is that there is a standardized form that is 
ultimately going to be submitted when a veteran files the 
formal claim aspect, it is maintaining the effective date that 
we have concerns.
    One, when this issue was first brought up, and VA mentioned 
it today, that we use standardized forms in everything. Which 
is correct, we do. And what they pointed to so much was IRS. 
Well, tax season is just from January 1 through April 15. 
Veteran season is January 1 through December 31st. And so we 
can't set up tax prepare or veteran prepare operations in every 
strip mall and corner of America like you see during tax 
season. It is not realistic. And we want to make sure that all 
veterans have access to receive those benefits that they 
receive and our fear is that if we continue down this path that 
has been proposed that those veterans' benefits are going to be 
reduced if not eliminated.
    Ms. Brownley. Thank you. And I yield back.
    Mr. Chairman. Mr. Coffman.
    Mr. Coffman. Mr. Chairman, just a question for all members 
of the panel. On H.R. 280 that involves what we call the 
calling back of bonuses that were given, either that where we 
find out that the recipient lacked merit for the bonus based on 
the record of performance after the fact that it was found out 
or that there was criminality involved during the duration that 
the bonus was given. What H.R. 280 does is it authorizes the 
Secretary of the VA to be able to call back those bonuses. And 
right now under current law it is only if in fact there was an 
administrative error in awarding the bonus the only ability to 
call back.
    Given the abuses that occurred in the VHA system with the 
employment wait times where there were instances where 
management was complicit in that and received bonuses for 
allegedly bringing down the wait times which we know was at the 
expense of our veterans or the construction of veterans 
hospitals that are hundreds of millions of dollars over budget, 
years behind schedule, that the leadership involved in that 
received bonuses. I would like to know if any of you have any 
reservations on the bill, I would like each one of you to state 
your position. Organization and state your position on that 
legislation.
    Mr. McLenachen. Congressman, DAV does not have an official 
position on that piece of legislation.
    Mr. Morosky. Congressman, the VFW supports the legislation. 
We feel like bonuses should be awarded for exceptional 
performance. Clearly, anybody who is putting veterans at risk, 
manipulating data, or defrauding the Government is not 
performing exceptionally and it is a disservice to the American 
taxpayer and veterans to allow them to keep their bonuses, so 
we support the legislation.
    Mr. Hearn. Congressman, The American Legion supports it. As 
many know that we established veterans' crisis command centers 
last year and went out into the field. And for those 
representatives of VA that essentially fraudulently received 
those bonuses, it is not right that they do. Just as was stated 
earlier, these bonuses should be based upon merit, not off of 
manipulated data.
    Mr. Ortner. Congressman, the only real concerns PVA had 
with it is that time frame. Do we have a situation where 
somebody goes back 10 years, 12 years? And in our written 
testimony we do indicate that we are not sure what that time 
frame should be. But that concern and then also just the fact 
that the Secretary is ruling on their own decision in a 
recoupment review. But other than that, we don't have any 
significant problems----
    Mr. Coffman. Mr. Ortner, I guess my question then would be 
to you then, but the decision is fairly subjective to begin 
with. The fact that there is criteria that is drawn up in terms 
of when someone merits a bonus, I mean that is done by the 
leadership of the Veterans Committee. You and I assume you 
served in the military, am I correct in that?
    Mr. Ortner. Yes, sir.
    Mr. Coffman. I know people are going to get bonuses, I mean 
unless they wanted to re-up for a longer period of time, but 
you were written up positively or negatively, and if you did a 
good job you were promoted, if you didn't do a good job, you 
were demoted or relieved of command or whatever was relative to 
your position. And so here we have a problem of excessive 
bonuses for people not doing their work. And so what I sense in 
your position is some reservation about the Secretary's ability 
to call back those bonuses.
    Mr. Ortner. Actually, it is more of a reservation about the 
justification of the Secretary going back. I think in our 
discussion there was a little concern, especially about the 
time frame. Do we have a Secretary that attempts to recoup a 
bonus based on a policy disagreement, based on a political 
disagreement, or something like that. Which is also why we go 
into the idea of saying if there is a case of fraud or criminal 
activity, obviously that is a given.
    So that is really our reservation, exactly what are the 
grounds for that, the bonus being recouped. And so you sort of 
backed up our concerns with saying, well, geez, it is kind of 
arbitrary on sometimes how those bonuses are given. So we don't 
want to get in the situation where it is arbitrary on how they 
are also pulled back due to some other disagreement.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Chairman. Thank you very much, Mr. Coffman. And I think 
if I am correct, Brigadier General?
    Mr. Ortner. Yes, sir.
    Mr. Chairman. Thank you, sir. Any other comments or 
questions? Miss Rice.
    Miss Rice. Thank you, Mr. Chairman. Mr. Ortner, do you have 
an estimate of how many veterans suffering from catastrophic 
injury or disability would actually be able to benefit from the 
Long Term Care Veterans Choice Act?
    Mr. Ortner. No, ma'am, I don't. But I would be happy to 
take that for the record and have our staff look into it.
    Miss Rice. That would be great. And I just have a general 
question for all of you. In what ways are your organizations 
able to help veterans through this claims process to ensure 
that they get the benefits that they need?
    Mr. Violante. DAV has a corp of about 270 National Service 
Officers, about 34 transition service officers. We are located 
at all the VA regional offices as well as some of the military 
bases where military members are coming out. So we are 
available to them at those offices. We also have roughly about 
2,000 service officers out in the field with chapters and 
departments that are points of contact that refer them to our 
national service officers.
    Mr. Morosky. Congresswoman, the VFW has similar services. 
We have service officers at each VA regional office. We have 
representatives at military bases for the benefits at discharge 
system, and we provide those services as well.
    Mr. Hearn. The American Legion has over 3,000 accredited 
representatives nationwide designed and they are professionally 
trained to help veterans, and we also have representatives at 
the regional offices and at the Board of Veterans Appeals.
    Mr. Ortner. PVA is similar to the other groups. We have 
about 70 service officers which handle claims. Their trained 
service officers who go through extensive training similar to 
DAV and the other VSOs. And they help all veterans, not just 
those with catastrophic injuries.
    Miss Rice. I applaud all of your organizations because as 
you all know you are very often the first line of defense for 
helping your colleagues get the benefits that they deserve, so 
I thank you all for that. And I yield back my time, Mr. 
Chairman, thank you.
    Mr. Chairman. Thank you very much. Members, any other 
questions?
    [No response.]
    Mr. Chairman. With that, we probably will each have 
questions for the record that we will follow up. We thank you 
for your testimony today. I would ask that all Members would 
have five legislative days with which to revise and extend 
their remarks, without objection, so ordered. And with that, 
this hearing is adjourned.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]


               Prepared Statement Of Chairman Jeff Miller

    Good Morning, Thank you all for being here today.
    Today we are having a legislative hearing on five pieces of 
legislation.
    In the interest of time, I am going to forgo a lengthy 
opening statement and just briefly touch on two bills on the 
agenda which I am proud to have introduced.
    The first bill is H.R. 280.
    The language is similar to a bill I introduced last 
Congress which passed favorably out of this committee.
    H.R. 280 would provide the secretary the authority to 
rescind a bonus or performance award from any VA employee when 
the secretary deems it appropriate.
    To ensure a fair process, the provision would also afford 
the employee an opportunity to have a hearing on the 
secretary's decision to recoup their bonus.
    I proposed this legislation last congress because VA had 
given this committee conflicting statements on whether or not 
it already had the ability to rescind bonuses.
    For example, former Secretary Shinseki rescinded then--
Phoenix Director Sharon Helman's 2013 bonus because it was paid 
based on an administrative error.
    Notwithstanding this limited authority, VA later confirmed 
it did not have the ability to rescind a bonus that was based 
on erroneous performance data.
    I believe the ability to recoup a bonus based on bad or 
manipulated performance data, is a tool that the secretary 
needs, and that the American public would expect.
    My second bill is H.R. 294, the Long-Term Care Veterans 
Choice Act.
    It would authorize VA, for three years beginning on October 
1, 2015, to enter into a contract or agreement with a certified 
medical foster home to pay for Long-Term Care For Certain 
Veterans already eligible for VA paid nursing home care.
    It would also require an eligible veteran to receive VA 
home health services as a component of such payment.
    Medical foster homes provide a non-institutional Long-Term 
Care alternative to veterans who prefer a smaller, more home--
like and family--style setting than most traditional nursing 
homes are able to provide.
    Though VA has been helping place veterans in medical foster 
homes for more than a decade, VA does not currently have 
authority to pay for a veteran to receive care in a medical 
foster home, even if the veteran is eligible for VA paid 
nursing home care.
    As a result, service-connected veterans who would prefer to 
receive care in a foster home must pay out of pocket using 
personal funds, and many are unable to do so because of 
financial constraints.
    Our veterans--particularly those who are service-connected 
and in need of long-term care-deserve to decide for themselves 
where and how to receive the care they need and H.R. 294 would 
allow them that opportunity.
    Given that the average cost of a medical foster home is 
approximately half the monthly cost of a nursing home, H.R. 294 
would also provide a cost effective long-term care option for 
the department.
    I urge my colleagues to support both of these bills and 
look forward to discussing them with our witnesses this 
morning.
    Ms. Brown has a bill on the agenda that I am proud to 
cosponsor, and at this time I'll defer to her for its 
explanation and for her opening statement.
    Ms. Brown.
    Thank You Ms. Brown.
    I now recognize Dr. Abraham to discuss his bill that is 
before us today, H.R. 245.
    Thank You Dr. Abraham.
    At this time, I would like to welcome to the witness table 
our colleague from the ninth district of Florida, Mr. Alan 
Grayson, who is the sponsor of H.R. 189, The Servicemember 
Foreclosure Protections Extension Act of 2015.
    Mr. Grayson, you are now recognized for five minutes.
    Thank You Mr. Grayson.
    We will forgo a round of questions for Mr. Grayson, and any 
questions that anyone may have for our colleague may be 
submitted for the record.
    On behalf of the committee, I thank you for joining us 
today and for your testimony on your bill.
    You are now excused.
    I now ask our second panel to come to the table.
    On this panel we will hear from Mr. David Mclenachen [Mik-
Len-A-Kin], Acting Deputy Under Secretary For Disability 
Assistance for the Veterans Benefits Administration at VA.
    He is accompanied by Dr. Rajiv Jain, Assistant Deputy Under 
Secretary for Health for Patient Services at VA's Veterans 
Health Administration;
    Ms. Susan Sullivan, Deputy Assistant Secretary for Policy 
at VA's Office of Policy and Planning; and Ms. Kim Mcleod 
Counsel in VA's Office of General Counsel.
    Thank you all for being here today.
    Mr. Mclenachen, you are now recognized for five minutes.
    Thank You.
    On behalf of the committee, I thank you for your testimony 
and for being here today.
    The second panel is now excused.
    I now invite our third and final panel to the witness 
table.
    Joining us today on the third panel is Mr. Joseph Violante, 
the National Legislative Director for the Disabled American 
Veterans;
    Mr. Aleks [Alex] Morosky, the Deputy Director of the 
National Legislative Service for the Veterans of Foreign Wars 
of the United States;
    Mr. Zachary Hearn [Hurn], the Deputy Director for Claims of 
the Veterans Affairs and Rehabilitation Commission for the 
American Legion;
    Mr. Blake Ortner, the Deputy Director of Government 
Relations for Paralyzed Veterans of America.
    Thank you all for being here today.
    All of your complete written statements will be made part 
of the hearing record.
    Mr. Violante, you are now recognized for five minutes.
    Mr. Morosky, you are now recognized for five minutes.
    Mr. Hearn, you are now recognized for give minutes.
    Mr. Ortner, you are now recognized for five minutes.
    Thank you all for your testimony.
    I will begin with questions.
    On behalf of the committee, I thank each of you for your 
testimony.
    We look forward to working with you in the future on these 
bills, as well as on a wide range of challenges facing our 
nation's veterans.
    If there are no further questions, the witnesses are 
excused.
    I now ask unanimous consent that statements from the 
Vietnam Veterans of America and the housing policy council be 
submitted for the record.
    Hearing no objection, so ordered.
    And I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks and include 
extraneous material.
    Hearing no objection so ordered.
    I thank the members and the witnesses for their attendance 
and participation today.
    This hearing is now adjourned.

                                APPENDIX

           Prepared Statement of Ranking Member Corrine Brown

    Mr. Chairman, thank you for holding the Committee's first 
legislative hearing of the 114th Congress.
    I look forward to this Committee, in our usual bipartisan fashion, 
being busy in looking at bills that will help our veterans, and assist 
the VA in its efforts to accomplish its mission.
    I am especially pleased that my bill, H.R. 216, was included today.
    H.R. 216 was introduced last Congress by former Ranking Member 
Michaud, and was approved by the Committee as part of the advance 
appropriations bill. I look forward to working with my colleagues and 
stakeholders to move this bill as fast as we can this year.
    VA's financial management process often looks like budgeting-by-
crisis. H.R. 216 would provide the framework to assist the VA in the 
steps it has already taken to reform its budget process. It's important 
that everyone have a copy of the rules and by putting these processes 
into statute we'll make sure that they do.
    Providing a roadmap each year so that VA, veterans, and Congress 
know where we are going is vital in reforming the VA.
    My bill will ensure that the steps taken to come up with this 
roadmap are transparent, and that all stakeholders are fully engaged in 
making sure that we provide the resources that our commitment to our 
veterans demands.
    So thank you, Mr. Chairman, for including H.R. 216 today. I look 
forward to hearing from our witnesses on this, and our other bills, and 
I yield back the balance of my time.

                                 <F-dash>

                   Prepared Statement of Alan Grayson

    Chairman Miller, Ranking Member Brown, thank you for inviting me to 
appear before you today. I look forward to what this committee, under 
the leadership of two Floridians, will be able to accomplish for our 
nation's veterans during the 114th Congress.
    As you know, my bill, H.R. 189: the `Servicemember Foreclosure 
Protections Extension Act of 2015', would extend for one calendar year 
the foreclosure and eviction protections that currently exist for 
active duty members of our military forces and veterans who have served 
in our armed forces within the past year. These protections are 
scheduled to expire at the end of 2015.
    Historically, Section 303 of the `Servicemembers Civil Relief Act' 
(``SCRA'') (50 U.S.C. App. 533) has protected servicemembers from 
foreclosure and eviction if an action is filed during, or within 90 
days after, a period of military service. Section 2203 of the `Housing 
and Economic Recovery Act of 2008' extended the period of protection 
from 90 days to nine months. In 2012, Congress--in a bill which you 
authored, Mr. Chairman--extended foreclosure and eviction protections 
further to one year (see Section 710 of the `Honoring America's 
Veterans and Caring for Camp Lejeune Families Act of 2012' (P.L. 112-
154)). Again, my bill would ensure that the one-year protection period 
that currently exists is extended.
    As you will recall, Mr. Chairman, we began discussing this 
provision of law in September of last year, after I noticed its 
omission from H.R. 5404: the `Department of Veterans Affairs Expiring 
Authority Act of 2014' which was ultimately signed into law. You voiced 
your support for its extension, but stated that you wished to hold a 
legislative hearing on a measure prior to moving an extension to the 
floor. I am pleased that Senator Sheldon Whitehouse was able to pass a 
clean one-year extension through the Senate during the closing days of 
the last session of Congress, and I am pleased that you have decided to 
make this one of the first pieces of legislation to consider before the 
committee this Congress.
    It is vitally important that we pass H.R. 189. Without this 
extension, the period of foreclosure and eviction protections currently 
made available to servicemembers will revert from one year all the way 
back to the original 90 day period (see Section 710(d)(3) of P.L. 112-
154). On January 28, 2014, GAO issued Report No. GAO-14-221 entitled 
`Servicemembers Civil Relief Act: Information on Mortgage Protections 
and Related Education Efforts'. Page 13 of that report states:

Our analysis of one servicer's data suggests that all military 
borrowers--SCRA-protected or not--had a higher likelihood of becoming 
delinquent in the first year after they left active duty than when in 
the military. For example, in the loan-level data from an institution 
that used the DMDC database to check the military status of its entire 
loan portfolio, all of its military borrowers had a higher likelihood 
of becoming delinquent in the first year after they left active duty 
than when in service, with that risk declining somewhat over the course 
of the year for non-SCRA-protected military borrowers.

    Mr. Chairman, we currently protect recent veterans and soldiers 
from the unfortunate situation just described; and, respectfully, I 
urge this committee to continue to do so. No soldier should ever have 
to fight abroad and return home, only to find that it is no longer 
there.





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                 [all]
</pre></body></html>
